3   *
          h
              :i
               r
                   ..   3




                                                                    NATIONAL SCIENCE FOUNDATION
                                                                     OFFICE OF INSPECTOR GENERAL
                                                                      OFFICE OF INVESTIGATIONS

                                                             CLOSEOUT MEMORANDUM

         Case Number: A05040016                                                                                       Page 1 of 2



                    We received an allegation1that a scientist on an NSF-funded subaward2had improperly used three
                    guinea pigs. The scientist allegedly used the animals without the proper review and approval by the
                    supporting university's Institutional Animal Care and Use Committee (IACUC). If true, such use
                    would constitute a violation of NSF policy and applicable federal regulations.

                    During our review, we determined that the proposal University 1 sent to NSF did not indicate that
                    vertebrate animals were to be used.4 When questioned by University 1 officials, the PI stated that he
                    never intended to use animals during this award.

                    Although both universities have policy and training on the use and care of animals, we determined
                    that the scientist working on the subaward unilaterally decided to use the animals. The scientist went
                    to a local pet store, purchased three guinea pigs, and, subsequentlyharvested them. He did not seek
                    or obtain permission from University 2's IACUC or inform the PI of his intentions.

                    University 2 officials did not find out about the use of the animals until the scientist sought
                    reimbursement for their cost. University 2 quickly informed both NSF and University 1 of the
                    matter. In addition, University 2 referred the matter to their IACUC committee. Because the
                    scientist had no prior history of wrongdoing and cooperated fully in the investigation, University 2
                    took no action against him, However, he was not reimbursed for the animals, consequently no NSF




                            Any grantee performing research on vertebrate animals shall comply with the
                            Animal Welfare Act [7 U.S.C. 2 131 et seq.] and the regulations promulgated there under
                            by the Secretary of Agriculture [9 CFR 1.1-4:111 pertaining to the humane care, handling,
                            and treatment of vertebrate animals held or used for research, teaching or other
                            activities supported by Federal awards. The awardee is expected to ensure that the
                            guidelines described in the National Academy of Science (NAS) Publication, "Guidefor
                            the Care and Use ofLaboratory Animals" (1996) are followed and to comply with the
                            Public Health Service Policy and Government Principles Regarding the Care and Use
                            of Animals (included as Appendix D to the NAS Guide).
                     NSF Grant Policy Manual $713 (07102).
                      NSF requires that when vertebrate animals are to be used in an NSF funded project, the proposal include sufficient
                    information to enable reviewers to evaluate the choice of species, number of animals to be used, and any necessary
                    exposure to animals to discomfort, pain, or injury. Furthermore, NSF requires that the proposal receive the approval
                    of the submitting organization's Institutional Animal Care and Use Committee (IACUC). Finally, NSF requires
                    that the "Vertebrate Animal" box on the NSF cover sheet be checked. See NSF Grant Proposal Guide §C (1 l)(d)
                    (12101)


    II                                                                                                                                     UI
     NSF OIG Form 2 (1 1/02)
                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                  CLOSEOUT MEMORANDUM




funds were ultimately involved.

We were informed that University 1 also consulted its IACUC and that University 1 decided to
terminate the subaward. There are no remaining issues.


       Accordingly, this case is closed.




                                                                                               II
                                                                                               I




                                                                                               i
                                                                                               I
